EMBLEM® MASTERCARD®
CREDIT CARD PROGRAM

IMPORTANT INFORMATION:
 CONSUMER IDENTIFICATION PROGRAM
NOTICE (Important Information About Procedures for
Opening a New Account)

 BANK CREDIT CARD AGREEMENT
 SUMMARY OF TERMS
 AGREEMENT TO ARBITRATE CLAIMS
(Including the Right to Reject Arbitration at
Account Opening)

 STATE NOTICES
 BILLING RIGHTS NOTICE

CUSTOMER IDENTIFICATION
PROGRAM
IMPORTANT INFORMATION ABOUT PROCEDURES FOR
OPENING A NEW ACCOUNT
To help the government fight the funding of terrorism and money
laundering activities, Federal law requires all financial institutions
to obtain, verify, and record information that identifies each person
who opens an account. What this means for you: When you open
an account, we will ask for your name, street address, mailing
address, date of birth, and other information that will allow us to
identify you. We may also ask to see your driver’s license or other
identifying documents.

BANK CREDIT CARD AGREEMENT
(NY Residents: RETAIL INSTALMENT CREDIT
AGREEMENT)
Nonnegotiable Consumer Note
This Bank Credit Card Agreement (“Agreement“) controls the use of
your EMBLEM® MasterCard® bank credit card account (“Account”).
Read it and keep it for your reference. Except as otherwise provided
in this Agreement and subject to applicable law, this Agreement
may be changed at any time beginning twelve (12) months after
Account opening in accordance with the Change of Terms paragraph
in the OUR RIGHTS AND HOW THEY AFFECT YOU section of this
Agreement. This Agreement also includes an Agreement to Arbitrate
with a right to reject arbitration. See “ARBITRATION PROVISION
(AGREEMENT TO
ARBITRATE CLAIMS)” below. Covered Military Borrowers: If you
are a “covered borrower,” as defined under the Military Lending Act,
10 U.S.C. § 987, as amended, (i) the “ARBITRATION PROVISION
(AGREEMENT TO ARBITRATION CLAIMS” provision, (ii) any
waiver of right to legal recourse under any state or federal law and
(iii) any other provision in this Agreement that is not enforceable
against you under the Military Lending Act does not apply to you. In
this Agreement, the words “you,” “your,” and “Cardholder” refer to all
persons who were expressly approved by us to use the Account. The
words “we,” “us,” and “our” refer to The Bank of Missouri, St. Robert,
Missouri our successors and assigns. The words “Card” or “Cards”
refer to the credit card that we issue to you. The word “Account”
means an individual or joint credit card account. The use of your
Account number to obtain credit will be considered a use of the Card.
The following items are now incorporated into this Agreement and
made a part of this Agreement:
(1) Any application, acceptance certificate or other written
document (including an electronic record) that you originally signed
or submitted in any way for this Account (your “Application”);
(2) The Card and card carrier that we send with your Card; and
(3) Your signature (including any electronic or digital signature) on
any Application, sales slip or other evidence of indebtedness on
your Account.

SUMMARY OF TERMS
Interest Rates and Interest Charges
19.99%
Annual
Percentage
Rate (APR)
for
Purchases
APR for
Special
Balance
Transfer

0%*

APR for
Cash
Advances
and other
Balance
Transfers

21.99%

Penalty
APR and
When it
Applies

24.99%

Paying
Interest

Minimum
Interest
Charge
For Credit
Card Tips
from the
Consumer
Financial
Protection
Bureau

This APR may be applied to your account if you
do not pay the required minimum payment by
its due date for two consecutive billing cycles.
How long will the Penalty APR apply?: If
your APRs are increased for the reason stated
above, the Penalty APR will apply until you
make six consecutive minimum payments
when due.
Your due date is at least 25 days after the
close of each billing cycle. We will not charge
you any interest on purchases if you pay your
entire balance by the due date each month. We
will begin charging interest on cash advances
and balance transfers (other than a Special
Balance Transfer, which is not subject to interest)
on the transaction date.
If you are charged interest, the charge will not
be less than $2.50.
To learn more about factors to consider
when applying for or using a credit card,
visit the website of the Consumer Financial
Protection Bureau at
http://www.consumerfinance.gov/learnmore/

Fees
Annual Fee

None (Initial 1 year from card issuance
date)
$45 (After 1 year from card issuance
date)

Transaction
Fees
 Balance
Transfer
 Cash
Advance
 Foreign
Transaction
Penalty Fees
 Late
Payments
 Returned
Payment

None
Up to 5% of the amount of each
cash advance (maximum fee; $50);
1% of each foreign transaction in
U.S. dollars
Up to $25 (varies by state; see below)
Up to $25 (varies by state; see below)

Billing Rights: Information on your rights to dispute transactions
and how to exercise those rights is provided at the end of this
document.
How We Will Calculate Your Balance: We use a method called
“average daily balance (including new purchases).” See Details
below.
*No Interest Charge (including any Penalty APR) or per transaction
Cash Advance Fee will apply to any remaining Program Balance
(“Special Balance Transfer,” if any) that is transferred to an
EMBLEM® MasterCard® credit card account (for the life of the
balance). Any other balance transfer will be treated as a Cash
Advance under this Bank Credit Card Agreement.
** No annual fee will be applied (at any time) if a Program Balance
remains.
Periodic Rates with Corresponding APRs

Purchase
Periodic
Rate

Cash
Advance
Periodic
Rate

Special
Balance
Transfer
Periodic
Rate*

Penalty
Periodic
Rate

1.6658%
(corresponding APR of
19.99%)

1.8325%
(corresponding APR of
21.99%)

0.00%
(corresponding APR of
0.00%)

2.0825%
(corresponding APR of
24.99%)

Penalty Rate: If we do not receive your required minimum
payment within 60 days of its due date, your Purchase and Cash
Advance rates (but not your Special Balance Transfer rate) may
increase to the Penalty Rate. The Penalty APR will cease t o

M-123403

apply if we receive six consecutive minimum monthly payments
on or before their respective payment due dates beginning with
the first payment due date following the effective date of the
increase.
Military Lending Act: Federal law provides important
protections to members of the Armed Forces and their
dependents relating to extensions of consumer credit. In general,
the cost of consumer credit to a member of the Armed Forces and
his or her dependent may not exceed an annual percentage rate
of 36 percent. This rate must include, as applicable to the credit
transaction or account: The costs associated with credit
insurance premiums; fees for ancillary products sold in connection
with the credit transaction; any application fee charged (other than
certain application fees for specified credit transactions or
accounts); and any participation fee charged (other than certain
participation fees for a credit card account). To hear disclosures
related to the Military Lending Act, please call this toll-free
number: 877-345-0151
Effective Date of This Agreement: This Agreement begins on
the earlier of (i) the date that your request for a Card and Account
is approved by us or (ii) the first date that we extend credit to you
on your Account, as evidenced by a signed sales slip or
memorandum, a cash advance or balance transfer transaction, or
otherwise (in NY, the first date that you sign a sales slip or
memorandum).
Signature; Acceptance of This Agreement: You agree that
any action taken by you in activating your Card, making a
payment on your Account or initiating any transaction on your
Account will constitute your signature on this Agreement.
Your Credit Limit: You agree not to use your Account in any
way that would cause you to go over the maximum amount of
credit available to you at the moment you initiate a transaction on
your Account (your “Credit Limit”). We may refuse to authorize or
accept any transaction on your Account that would cause you to
exceed your Credit Limit. We may temporarily agree to allow you
to exceed your Credit Limit; however, in that case you must repay
the excess amount immediately.
We reserve the right to change (to set, increase, decrease or
remove) the Credit Limit for your Account and/or for specific types
of Account balances from time to time. Such changes may occur
without prior written notice to you and may be based upon factors
including, but not limited to, anti-fraud policies and procedures,
your record of making timely payments and staying within the
established Credit Limit on your account with us, your credit score
and information contained in your credit report.
Your Credit Limit can be found on your latest periodic statement
or provided upon request. You may not request an increase in
your Credit Limit, but you may at any time request a decrease in
your Credit Limit.
Using Your Card or Account: You can use your Card to
purchase or lease goods or services (including mail, telephone
and electronic orders) from participating establishments
(“Purchase”). You also can use your Card to obtain a cash loan
(“Cash Advance”) by presenting your Card to any institution that
accepts the Card for that purpose or by making a withdrawal of
cash at an ATM. Transactions made with your Account for things
like money orders, deposits, wire transfer money orders, travelers
cheques, foreign currency and other similar transactions, will be
treated as Cash Advances. They are sometimes called “quasicash” transactions.

You may use the Account only for personal, family, or household
purposes. You may not use your Card or your Account for any
illegal transaction or any gambling transaction. We will decline
identifiable gambling transactions.
We may refuse to authorize or accept any transaction on your
Account if your Account is delinquent.
Promise to Pay: You promise to pay us for all transactions, plus
Interest, fees and other charges due, on your Account. You
promise to make all payments in U.S. dollars and that all checks or
other items submitted in payment will be drawn on U.S. financial
institutions.
Monthly Statements: We will send you a statement under the
following circumstances:
(1) At the end of each monthly period of approximately 30 days
(“Billing Cycle”) if there is a debit or credit balance on your Account
of $1 or more;
(2) If we assessed a Finance Charge on a balance in your
Account; or
(3) As otherwise required by applicable law.
Minimum Payment: The minimum required payment on your
Account for each Billing Cycle (“Minimum Payment”) is the sum of
(i) the greater of (a) one percent (1%) of your total outstanding
Account balance on the Billing Cycle Closing Date (your “New
Balance”) or (b) $15; plus (ii) any current billed periodic Interest
charges; plus (iii) any Late Payment Fee billed to your Account in
the current Billing Cycle; plus (iv) the greater of (a) any past due
amount or (b) any amount by which your New Balance exceeds
your Credit Limit.
If your New Balance is less than your Minimum Payment, your
New Balance is due in full.
You may pay any or all of the amounts you owe at any time
without penalty. You must pay at least the Minimum Payment
within 25 days of the Closing Date of the Billing Cycle (shown as
the “Payment Due Date” on your statement).
(4) Application of Payments: We will apply payments to your
Account in accordance with applicable law. If you make a payment
in excess of the required minimum payment, we must apply the
excess amount first to your balance with the highest annual
percentage rate.
Payments are posted to your Account upon receipt; however, we
reserve the right not to increase your available credit by the
amount of any payment received for a period of four (4) business
days from the date of receipt to provide for processing and/or
verification. To speed this payment process, we make a
convenient expedited pay-by-phone service available to our
customers. A small fee may be charged when you use this optional
payment method.
HOW FINANCE CHARGES ARE DETERMINED
Your finance charge will include the following, as applicable: (i) a
per transaction finance charge (Cash Advance Fee) as shown in
the Summary of Terms above for each Cash Advance posted
during a Billing Cycle and (ii) your periodic Interest charge. We
compute periodic Interest charges applying the applicable Monthly
Periodic Rate to (a) your Average Daily Balance of Cash
Advances, (b) your Average Daily Balance of Purchases and
(c) the respective average daily balances for any other types of
balances that are subject to different APRs. Again, any remaining
Program Balance (Special Balance Transfer) that is transferred to
your EMBLEM® MasterCard ® credit card account will not accrue

any finance charge (including any Penalty APR orCash Advance
Fee) for the life of the balance.
Calculating the Balance Subject to Interest: We calculate the
balance subject to Interest using the “Average Daily Balance
(including new transactions)” method (“ADB”). We calculate the
ADB separately for each type of balance. To get each ADB, we
take the beginning balance of your Account each day for each
type of balance, including accrued but unpaid Interest charges
attributable to such balance, add any new transactions as of the
date of transaction, including any applicable Cash Advance Fees
as of the date each Cash Advance posts with us, and subtract the
applicable portion of any payments and credits as of the date
those post with us. This gives us the daily balance for each type of
balance. Then we add together the daily balances for the
Billing Cycle for each type of balance and divide the total by the
number of days in the Billing Cycle. This gives us the ADB for each
type of balance. Annual Percentage Rate (APR) and Monthly
Periodic Rate: The applicable Monthly Periodic Rate is equal to
1/12 of the corresponding APR. The Monthly Periodic Rate (and
corresponding APR) for each type of balance is shown above.
When Interest Charges Begin to Accrue: Subject to any grace
period, periodic Interest charges on Purchases will be imposed at
the applicable Monthly Periodic Rate from the date each Purchase
is made and will continue to accrue on unpaid balances as long as
they remain unpaid. You will have a 25-day grace period to repay
your new balance before an Interest charge on Purchases will
be imposed if your Previous Balance is (i) zero,
(ii) a credit balance, or (iii) paid in full by the “Payment Due Date”
shown on your monthly billing statement. Interest on Cash
Advances (in addition to Cash Advance Fees) will be imposed at
the applicable Monthly Periodic Rate from the date of each
transaction and will continue to accrue on unpaid balances as long
as they remain unpaid. There is no time period within which to pay
to avoid periodic Interest charges on Cash Advances. The
minimum FINANCE CHARGE you will be required to pay in any
billing cycle that has Finance Charge due is $2.50.
ACCOUNT FEES: The fees and charges that may be applied to
your Account are set forth in the Summary of Terms above.
Late Payment Fee: If you do not make your Minimum Payment on
or before the Payment Due Date, we will apply a Late Payment
Charge of up to $25 ($15 in IA) if payment is more than 5 days late.
Returned Check Fee: If any check or money order in payment of
your account is returned to us unpaid for any reason, we will
apply a returned check fee of up to $25 ($15 in IA) to your Account.
Annual Fee: Your account may be assessed an annual fee of
$25 starting 24 months after card issuance date.
Foreign Transaction Fee: We will impose a fee of one percent
(1%) on each (original and reversed) international purchase, credit
voucher, and cash disbursement transaction (including
international transactions made in U.S. dollars). This fee is a passthrough of a fee imposed by the card association.
OUR RIGHTS AND HOW THEY AFFECT YOU
Telephone Monitoring and Recording: From time to time, we
may monitor and/or record telephone calls regarding your Account
with us to assure the quality of our service, and you agree to
any such monitoring or recording.
Communicating With You; Consent to Contact by Electronic
and Other Means: You agree that we or our servicers, agents,
contractors, successors, or assigns may contact you as provided
in this paragraph. We may contact you for any lawful reason,

including for the collection of amounts owed to us and for the
offering of products or services in compliance with our Privacy
Policy in effect from time to time. No such contact will be deemed
unsolicited. We may contact you at any address or telephone
number (including wireless cellular telephone or ported landline
telephone number) that you may provide to us from time to time. We
may use any means of communication, including, but not limited to,
postal mail, electronic mail, telephone or other technology, to reach
you. You agree that we may use automatic dialing and announcing
devices which may play recorded messages. We may also send
text messages to your telephone.
You may contact us at any time to ask that we not contact you
using any one or more methods or technologies.
Refunds: If a seller agrees to give a refund, you agree to accept
a credit on your Account instead of a cash refund.
Postdated Checks, Restricted Endorsement Checks and
Other Disputed or Qualified Payments: We can accept late,
postdated or partial payments without losing any of our rights under
this Agreement. (A postdated check is a check dated later than the
day it was actually presented for payment.) We are under no
obligation to hold a post dated check and we reserve the right to
process every item presented as if dated the same date received
by us or our check processor unless you give us adequate notice
and a reasonable opportunity to act on it. Except where such notice
and opportunity is given, you may not hold us liable for depositing
any postdated check. You agree not to send us partial payments
marked “paid in full,” “without recourse,” or similar language. If you
send such a payment, we may accept it without losing any of our
rights under this
Agreement.
All notices and written
communications concerning postdated checks, restricted
endorsement checks (including any check or other payment
instrument that indicates that the payment constitutes
“payment in full” of the amount owed or that is tendered
with other conditions or limitations or as full satisfaction of a
disputed amount) or any other disputed, nonconforming or
qualified payments, must be mailed or delivered to Emblem
Cardholder Services, PO BOX 89210 Sioux Falls, SD 57109.
Credit Reports and Information: You authorize us to make any
credit, employment, or other investigative inquiries we deem
appropriate to extend you credit or to renew, review or collect
amounts owed to us on your Account. We also may obtain followup credit reports on you for any lawful purpose as long as you have
an outstanding balance.
Information Sharing: You acknowledge and agree that we may
share information about you with others in accordance with our
Privacy Policy in effect from time to time. We will provide a copy of
our current Privacy Policy to you from time to time.
Notice of Inaccurate Information: If you believe that we have
information about you that is inaccurate or that we have reported
or may report to a credit reporting agency information about you
that is inaccurate, please notify us of the specific information that
you believe is inaccurate by writing to us at Emblem Cardholder
Services, PO BOX 89210 Sioux Falls, SD 57109.
Collection and Default: Unless prohibited by applicable law, your
Account is considered to be in default if:
(1) You do not make at least the Minimum Payment on or before
the Payment Due Date;
(2) You try to exceed, or do exceed, your Credit Limit;
(3) You file bankruptcy or insolvency proceedings;
(4) You become subject to attachment or garnishment

M-123403

proceedings;
(5) You give us any false information or signature;
(6) You die; or
(7) You fail to comply with any portion of this Agreement.
Subject to any notice of default and right to cure or other
restriction of applicable law, if you are in default, we may
declare the entire balance due immediately.
Change of Terms: Your Account is a continuing offer to extend
further credit to you that we may end at any time. Except as
otherwise provided in this Agreement and subject to applicable
law, we may, at any time beginning twelve (12) months after
Account opening, add, change or remove any of the terms
and conditions of this Agreement. A change may be based
upon factors including, but not limited to, anti- fraud policies
and procedures, your record of making timely payments and
staying within your established Credit Limit, your credit
score and information contained in your credit report. We will
mail written notice of a change to you when and in the manner
required by applicable law. Subject to the limitations of applicable
law, as of the stated effective date, the changed or new terms
will apply to new Purchases, Cash Advances and other
transactions.
Delay in Enforcement: We can delay enforcing our rights under
this Agreement without losing them.
OTHER PROVISIONS
Transfer and Termination of Your Account: You may not
transfer your Account to any other person. We may assign your
Account to any other person at any time. We may terminate your
Account if you are or become a non-U.S. resident or a resident of
Illinois, Indiana, Massachusetts, Maine, North Carolina, Rhode
Island, West Virginia or any U.S. territory. Either you or we may
terminate or suspend your credit privileges at any time. Upon our
request, you agree to destroy your Card immediately.
Account Cancellation and Fee Refund: You may ask that we
close your Account at any time by notifying us in writing. Except
as provided below, you will remain responsible for all
transactions, periodic Interest charges, and other fees and
charges, charged to your Account until paid in full. We will credit
fees to your Account ONLY IF (i) you close your Account within
30 days of Account opening and (ii) you make no new Purchase
or Cash Advance transactions on your Account after opening.
After this 30-day period, all fees are no longer avoidable or
refundable.
Foreign Currency Conversion: If you use your Card for
transactions in a currency other than U.S. dollars, the
transactions will be converted to U.S. dollars under the
appropriate current card association regulations. The e xch a n ge
or currency conversion rate between the transaction currency and
the billing currency will be either (i) a rate selected by the card
association from the range of rates available in wholesale
currency markets for the applicable central processing date,
which rate may vary from the rate the card association itself
receives, or (ii) the government-mandated rate in effect for the
applicable central processing date. The exchange or currency
conversion rate on the transaction processing date may differ
from the rate in effect at the time of the transaction or the date the
transaction is posted to your Account. You agree to accept the
converted amount in U.S. dollars.
Honoring Your Card: We are not accountable if a merchant,

ATM or other institution does not honor your Card, or if it
malfunctions there. Although you may have credit available, we are
not liable if credit is not authorized or approved, whether because
of operational difficulties, mistakes or otherwise. Transactions
above a certain dollar amount may require special authorization by
us before the transaction can be approved. In addition, we may
limit the number and amount of transactions approved in one day
for security reasons, without any liability to you.
Notices; Change of Address, Employment or Telephone: We
will send all written notices and statements to your address as it
appears on our records. To avoid delays and missed payments
that could affect your credit standing, you agree to advise us
promptly if you change your mailing address, place of employment,
telephone number or other contact information, including, but not
limited to, porting a landline telephone number to a cellular phone.
You represent and agree that for purposes of imposing fees and
charges, the mailing address on your statement is your state of
residence.
Severability: In the event that any provision of this Agreement is
determined to be invalid or unenforceable for any reason, the
validity or enforceability of any other provision of this Agreement
will not be affected, and in lieu of such invalid or unenforceable
provision there will be added automatically, as part of this
Agreement, a provision as similar in terms as may be valid and
enforceable, if possible.
No Waiver By Us: We reserve the right, at any time and in our
sole discretion, not to impose part or all of any fee or other amount
imposed pursuant to this Agreement or not to exercise any of
our other rights under this Agreement. If we exercise the foregoing
right, we will not waive our right to impose any such fee or other
amount or our right to exercise the foregoing right or any other
rights, in the future.
Entire Agreement; Interpretation: This Agreement constitutes
the final expression of the credit agreement between you and us
relating to your Account. The headings used in this Agreement are
for the convenience of reference only and are not intended to
define or describe the entire scope or intent of any portion of this
Agreement.
Governing Law: This Agreement is controlled and governed
the laws of the State of Missouri, including Missouri Revised
Statutes (Chapter 408 Legal Tender and Interest) Section
408.145, except to the extent that such laws are inconsistent
with controlling federal laws.

ARBITRATION PROVISION
ARBITRATE CLAIMS)

(AGREEMENT TO

Unless you are a “covered borrower,” as defined under the Military
Lending Act, 10 U.S.C. §987, as amended, and except as
otherwise stated below, if you or we so choose, any Claim (as
defined below) will be resolved by binding arbitration pursuant to
(a) this Arbitration Provision and (b) the code of procedure of the
national arbitration organization to which the Claim is referred (as
in effect when the Claim is filed). Claims will be referred to either
Judicial Arbitration and Mediation Services (“JAMS”) or the
American Arbitration Association (“AAA”), as selected by the party
electing to use arbitration. Streamlined arbitration procedures will
be used if available. If a selection by us of one of these
organizations is unacceptable to you, you have the right, within 30
days after you receive notice of our election, to select the other

organization listed to serve as arbitration administrator. For
purposes of this Arbitration Provision, “Claim” means any claim,
dispute or controversy (whether in contract, tort, or otherwise)
past, present or future, (collectively, "Claims") as further described
below. (If for any reason a selected organization cannot, will not or
ceases to serve as an arbitration administrator, you or we may
substitute another wi d e l y recognized arbitration organization that
uses a similar code of procedure and is mutually acceptable to the
parties.) If you receive a Card and later default on your Account,
we agree not to bring legal action or seek arbitration to collect any
remaining Program Balance that is transferred to your EMBLEM®
MasterCard® Account.
RIGHT TO REJECT ARBITRATION: You may reject this
Arbitration Provision. If you do so, neither you nor we will have
the right to engage in arbitration. Rejecting this Arbitration
Provision will have no affect on any of the other provisions in this
Bank Credit Card Agreement. To reject this Arbitration Provision,
you must send us your written rejection within 60 days after we
open your Account, or 60 days after any change in terms that
affects this Arbitration Provision, to Emblem Cardholder Services,
PO BOX 89210 Sioux Falls, SD 57109.
In your letter, you must give us the following information: Name,
Address and Account number. The right to reject granted here
applies solely to this Arbitration Provision, and not to any other
provision of this Bank Credit Card Agreement, or to any other
agreement with us. In the event of a dispute over whether you
have provided a timely rejection notice, you must provide proof of
delivery. Neither party may elect to arbitrate an individual Claim
brought in small claims court (or your state’s equivalent court, if
any). However, if a Claim that is brought in small claims court is
transferred or appealed to a different court, either party may elect
arbitration.
SIGNIFICANCE OF ARBITRATION; LIMITATIONS
AND
RESTRICTIONS. IF YOU OR WE CHOOSE TO RESOLVE A
CLAIM BY BINDING ARBITRATION, NEITHER YOU NOR WE
WILL HAVE THE RIGHT TO (i) HAVE A COURT OR JURY
DECIDE THE CLAIM BEING ARBITRATED (ii) ENGAGE IN
PRE-ARBITRATION DISCOVERY (THAT IS, THE RIGHT TO
OBTAIN INFORMATION FROM THE OTHER PARTY) TO THE
SAME EXTENT THAT YOU OR WE COULD IN COURT,
(iii) PARTICIPATE AS A REPRESENTATIVE OR MEMBER OF
ANY CLASS OF CLAIMANTS IN A CLASS ACTION, IN COURT
OR IN ARBITRATION, RELATING TO ANY CLAIM SUBJECT TO
ARBITRATION OR (iv) JOIN OR CONSOLIDATE CLAIMS
OTHER THAN YOUR OWN OR OUR OWN. OTHER RIGHTS
AVAILABLE IN COURT MAY NOT BE AVAILABLE IN
ARBITRATION. Except as set forth below, the arbitrator’s decision
will be final and binding. Only a court may decide the validity of
items (iii) and (iv) above. If a court holds that items (iii) or (iv) are
limited, invalid or unenforceable, then this entire Arbitration
Provision will be null and void. You or we can appeal any such
holding. If a court holds that any other part(s) of this Arbitration
Provision (other than items (iii) and (iv)) are invalid, then the
remaining parts of this Arbitration Provision will remain in force. An
arbitrator will decide all other issues pertaining to arbitrability,
validity, interpretation and enforceability of this Arbitration
Provision. The decision of an arbitrator is as enforceable as any
court order and may be subject to very limited review by a court. An
arbitrator may decide a Claim upon the submission of documents

alone. A party may request a telephonic hearing if permitted by
applicable rules. The exchange of non-privileged information relevant
to the Claim, between the parties, is permitted and encouraged.
Either party may submit relevant information, documents or exhibits
to the arbitrator for consideration in deciding a Claim.
BROAD MEANING OF “CLAIMS.” The term "Claims" in this
Arbitration Provision is to be given the broadest possible meaning
and includes (by way of example and without limitation) Claims
arising from or relating to (i) the application for or issuance of your
Account, (ii) use, terms, change in terms or addition of terms,
closing or collection of your Account or this Bank Credit Card
Agreement, (iii) advertisements, promotions or oral or written
statements related to your Account, including any Claims regarding
information obtained by us from, or reported by us to, credit
reporting agencies or others, (iv) the goods or insurance or other
services purchased under your Account, (v) Claims between you
and our parent corporations, wholly or majority owned subsidiaries,
affiliates, predecessors, successors, assigns, agents, independent
contractors, employees, officers, directors or representatives
arising from your Account or this Bank Credit Card Agreement and
(vi) Claims regarding the validity, enforceability or scope of this
Arbitration Provision or this Bank Credit Card Agreement.
ARBITRATION PROCEDURE AND COSTS. For a copy of
relevant codes of procedure, to file a Claim or for other information
about JAMS and AAA, write them, visit their web site or call them
at: (i) for JAMS, 1920 Main Street, Suite 300, Irvine, CA 92614 or
info@jamsadr.com, http://www.jamsadr.com, 1-800- 352-5267; or
(ii) for AAA, 1633 Broadway, 10th Floor, New York, NY 10019 or
websitemail@adr.org, http://www.adr.org, 1-800- 778-7879. If
either party fails to submit to arbitration following a proper demand
to do so, that party will bear the costs and expenses, including
reasonable attorneys’ fees, incurred by the party compelling
arbitration. Any physical arbitration hearing that you attend will be
held in the federal judicial district where you live at the time the
Claim is filed. The party initiating the arbitration will pay the filing
fee. You may seek a waiver of the initial filing fee or any other fees
incurred in arbitration. If you seek, but do not qualify for, a waiver,
we will consider any written request by you for us to pay or
reimburse you for all or part of such fees. Each party will pay for
its respective attorneys’, experts’ and witness fees, regardless of
which party prevails in the arbitration. A party may recover any or
all expenses from another party if the arbitrator, applying
applicable law, so determines. Allocation of fees and costs relating
to appeals in arbitration will be handled in the same manner. For
an explanation and schedule of the fees that apply to an
arbitration
proceeding
with
JAMS,
please
visit
http://www.jamsadr.com/rules-streamlined-arbitration; for AAA,
visit http://www.adr.org/si.asp?id=5391. The appropriate fee
schedule in effect from time to time is hereby incorporated by
reference into this Arbitration Provision. The cost of arbitration may
be higher or lower than the cost of bringing your Claim in court,
depending upon the nature of your Claim and how the
arbitration proceeds. Having more than one Claim and holding
face-to-face hearings can increase the cost of arbitration. Again,
neither you nor we will be permitted to arbitrate claims on a classwide (that is, on other than an individual) basis. An arbitration
proceeding can decide only your or our Claims. You cannot join
other parties (or consolidate Claims) except with respect to

M-123403

persons who use your Account.
GOVERNING LAW FOR ARBITRATION. This Arbitration
Provision is made pursuant to a transaction involving
interstate commerce, and will be governed by the Federal
Arbitration Act ("FAA"), 9 U.S.C. §§ 1 et seq., as amended,
notwithstanding any other governing law provision in this Bank
Credit Card Agreement. The arbitrator will apply applicable
substantive law consistent with the FAA and applicable
statutes of limitations and will honor claims of privilege
recognized at law. Judgment upon any arbitration award may
be entered and enforced, including without limitation by
garnishment, attachment, foreclosure or other post-judgment
remedies, in any court having jurisdiction. The arbitrator’s
decision will be final and binding, except for any right of appeal
provided by the FAA, in which case any party can appeal the
award to a three-arbitrator panel administered by the selected
arbitration administrator. The panel will reconsider de novo
(that is, without deference to the ruling of the original
arbitration) any aspect of the initial award requested by the
appealing party.
CONTINUED EFFECT OF ARBITRATION PROVISION. This
Arbitration Provision will continue to govern any Claims that may
arise without regard to any termination or cancellation of your
Account. If any portion of this Arbitration Provision (other than
the provisions prohibiting class-wide arbitration, joinder or
consolidation) is deemed invalid or unenforceable under the
FAA, it will not invalidate the remaining portions of this Arbitration
Provision. If a conflict or inconsistency arises between the code
of procedures of the selected arbitration administrator and this
Arbitration Provision, this Arbitration Provision will control.

STATE NOTICES
CA RESIDENTS: A married applicant may apply for a separate
account. If this is a joint account, after credit approval, each
applicant shall have the right to use this account to the extent of
any credit limit set by the creditor, and each applicant may be
liable for all amounts of credit extended under this account to
any joint applicant. Interest is compounded on unpaid finance
charges on Purchases and on unpaid finance charges on Cash
Advances.
NJ RESIDENTS: Because certain provisions of this
Agreement are subject to applicable law, they may be void,
unenforceable or inapplicable in some jurisdictions. None of
these provisions, however, is void, unenforceable or
inapplicable in New Jersey.
OH RESIDENTS: The Ohio laws against discrimination require
that all creditors make credit equally available to all credit
worthy customers, and that credit reporting agencies maintain
separate histories on each individual upon request. The Ohio
civil rights commission administers compliance with this law.
NY RESIDENTS: New York residents may contact the New
York state banking department to obtain comparative listing of
credit card rates, fees, and grace periods. Call 1-800-518-8866.
WI RESIDENTS: We will not charge you attorneys’ fees, court
costs, or other collection costs incurred as a result of your default.
MARRIED WI RESIDENTS: No provisions of any marital
property agreement, unilateral statement under section 766.59
or court decree under section 766.70 will adversely affect the
interest of the creditor unless the creditor, prior to the time credit

is granted, is furnished a copy of the agreement, statement, or
decree or has actual knowledge of the adverse position when the
obligation to the creditor is incurred. We are required to ask you to
provide the name and address of your spouse.
DE and MD RESIDENTS: Finance charges will be imposed in
amounts or at rates not in excess of those permitted by law on the
outstanding balances from month to month.
MD RESIDENTS: You have the right under Section 12-510 of the
Commercial Law Code to receive an answer to a written inquiry
concerning the status of your account.

NOTICE TO THE BUYER
1. DO NOT SIGN THIS CREDIT AGREEMENT
BEFORE YOU READ IT OR IF IT CONTAINS ANY
BLANK SPACES.
2. YOU ARE ENTITLED TO A COMPLETELY
FILLED IN COPY OF THIS CREDIT AGREEMENT.
3. YOU MAY AT ANY TIME PAY MORE THAN
THE MINIMUM PAYMENT OR YOUR ENTIRE
BALANCE IN FULL WITHOUT INCURRING ANY
ADDITIONAL CHARGE FOR PREPAYMENT.
NY RESIDENTS: RETAIL INSTALMENT CREDIT
AGREEMENT
CARDHOLDER: Your signature (including any electronic or digital
signature) on any Application or on any sales slip or other evidence
of indebtedness on your Account represents your signature on this
Agreement.
BANK: /s/ The Bank of Missouri/St. Robert MO
Date: September 2017
BILLING RIGHTS NOTICE
Your Billing Rights: Keep This Document For Future Use
This notice tells you about your rights and our responsibilities
under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Emblem Cardholder Services
PO BOX 89210
Sioux Falls, SD 57109
In your letter, give us the following information:
•
Account information: Your name and account number.
•
Dollar amount: The dollar amount of the suspected error.
•
Description of problem: If you think there is an error on your
bill, describe what you believe is wrong and why you believe
it is a mistake.
You must contact us:
•
Within 60 days after the error appeared on your statement.
•
At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you
think is wrong.
You must notify us of any potential errors in writing. You may call
us, but if you do we are not required to investigate any potential
errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that
we received your letter. We will also tell you if we have already
corrected the error.

2.

Within 90 days of receiving your letter, we must either correct
the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
•
We cannot try to collect the amount in question, or report
you as delinquent on that amount.
•
The charge in question may remain on your statement, and
we may continue to charge you interest on that amount.
•
While you do not have to pay the amount in question, you
are responsible for the remainder of your balance.
•
We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
•
If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.
•
If we do not believe there was a mistake: You will have
to pay the amount in question, along with applicable interest and
fees. We will send you a statement of the amount you owe and
the date payment is due. We may then report you as delinquent if
you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong,
you must write to us within 10 days telling us that you still refuse to
pay. If you do so, we cannot report you as delinquent without also
reporting that you are questioning your bill. We must tell you the
name of anyone to whom we reported you as delinquent, and we
must let those organizations know when the matter has been
settled between us.
If we do not follow all of the rules above, you do not have to pay
the first $50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card
Purchases
If you are dissatisfied with the goods or services that you have
purchased with your credit card and you have tried in good faith to
correct the problem with the merchant, you may have the right not
to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within
100 miles of your current mailing address, and the purchase
price must have been more than $50. (Note: Neither of these
are necessary if your purchase was b as e d on an advertisement
we mailed to you, or if we own the company that sold you the
goods or services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied
with the purchase, contact us in writing at:
Emblem Cardholder
Services PO BOX 89210
Sioux Falls, SD 57109
While we investigate, the same rules apply to the disputed
amount as discussed above. After we finish our investigation,
we will tell you our decision.

M-123403

Please take a moment to review the following important information about your Emblem® account.
What you need to know: We are pleased to inform you that Mid America Bank & Trust company, has been
acquired by The Bank of Missouri. As a result, The Bank of Missouri will be the issuing bank for your Emblem®
Mastercard effective March 26, 2018. You can expect to see the Bank of Missouri name and logo on the documents
associated with your account from the effective date going forward. Please note that the servicer for your account,
Emblem® Card Services, will not change when the change to the issuing bank becomes effective. Also, please note
the following amendment to your cardholder agreement:
“We,” “us,” “our,” means The Bank of Missouri, St. Robert, Missouri, and our agents, authorized
representatives, successors, and assignees or other holders of this Agreement or your Account.
The Bank of Missouri privacy policy that applies to your Emblem® MasterCard is included with this notice.
What you need to do: You will not have to take any action in response to this notice. The financial terms and conditions associated with your account, including interest rate and fees, have not changed. Your account number and
pin, if applicable, will also stay the same and you may continue to use your existing card as usual. Other practical
matters such as your payment due date, and the customer service number and payment address associated with
your account, will also stay the same.
Should you have any questions, please contact us at 1-877-345-0151 or visit us at www.myccpay.com to make
payment.

M-125063

Total Card BuckSlip_M125063 165028.indd 1

3/12/18 10:19 AM

